5/6/2021

Credit Card Application Disclosure | FORUM Credit Union

Schedule an appointment

Find a Location

Login



Credit Card Application Disclosure
Interest Rate and Interest Charges

2.99% Introductory APR, for qualifying members, for one year from account opening.

Annual Percentage Rate
(APR) for Purchases

After that, or if you do not qualify for the Introductory APR, your APR will be 7.24% to 13.24%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.
APR for Balance Transfers

2.99% Introductory APR, for qualifying members, for one year from account opening.
After that, or if you do not qualify for the Introductory APR, your APR will be 7.24% to 13.24%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

APR for Cash Advances

2.99% Introductory APR, for qualifying members, for one year from account opening.
After that, or if you do not qualify for the Introductory APR, your APR will be 7.24% to 13.24%, based on your
creditworthiness. This APR will vary with the market based on the Prime Rate.

Penalty APR and When it Applies

None

How to Avoid Paying

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases

Interest on Purchases

if you pay your statement balance by the due date each month.

Minimum Interest

None

Charge
For Credit Card Tips

To learn more about factors to consider when applying for or using a credit card, visit the website of the Consumer

from the Consumer

Financial Protection Bureau at https://www.consumer nance.gov/learnmore 

Financial Protection
Bureau

Fees
Annual Fee
Transaction Fees
Balance Transfer
Cash Advance
Foreign Transaction
Penalty Fees
Late Payment
Over-the-CreditLimit
Returned Payment

None
None
None
None

Up to $25.00
None
Up to $25.00

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).”
E ective Date: The information about the costs of the card described in this application is accurate as of March 17, 2020. This information may have
changed after that date. To nd out what may have changed, contact the Credit Union.
For California Borrowers, the Mastercard is a secured credit card. Credit extended under this credit card account is secured by various personal property
and money including, but not limited to: (a) any goods you purchase with this account, (b) any shares you speci cally pledge as collateral for this account
on a separate Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding shares in an Individual Retirement
Account or in any other account that would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have with the
Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are covered borrower
under the Military Lending Act your credit card will be secured by any speci c Pledge of Shares you grant us but will not be secured by all shares you have
in any individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account
when you are not a covered borrower; or (ii) you cease to be a covered borrower.

Live Chat

https://www.forumcu.com/loans/credit-card/disclosure

1/2

5/6/2021

Credit Card Application Disclosure | FORUM Credit Union

Other Fees and Disclosures:
Late Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less.
Returned Payment Fee: $25.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a payment.
Document Copy Fee: $5.00
Statement Copy Fee: $5.00
Expedited 2-day Replacement Card Fee: $35.00
Expedited 1-day Replacement Card Fee: $55.00
Research Fee: $30.00 per hour (minimum fee of $30.00)
Mastercard and the Mastercard Bank Mark are registered trademarks of Mastercard International Incorporated.

Stay up-to-date

with the latest FORUM News,
Financial Tips & Monthly Promos

Enter Your Email

Subscribe

     

ADA Statement Privacy Policy Disclosures Terms of Use About Us Sponsorship Careers Site Map
Consumer & Business Routing #: 274074037
© 2021 FORUM Credit Union | 11313 USA Parkway Fishers, IN 46037 | 317‑558‑6000

Live Chat
https://www.forumcu.com/loans/credit-card/disclosure

2/2

